LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

February 8, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 20-512:
RE 20-520:

NATIONAL COLLEGIATE ATHLETIC ASSOCIATION V. SHAWNE ALSTON, ET AL.
AMERICAN ATHLETIC CONFERENCE, ET AL. V. SHAWNE ALSTON, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of Counsel for Amici Curiae Former StudentAthletes, on February 8, 2021, I caused service to be made pursuant to Rule 29 on the following
counsel for the Petitioners and Respondents:
PETITIONER NATIONAL COLLEGIATE
ATHLETIC ASSOCIATION:
Seth P. Waxman
Wilmer Cutler Pickering Hale
and Dorr LLP
1875 Pennsylvania Ave, NW
Washington, DC 20006
202-663-6800
Seth.Waxman@wilmerhale.com
PETITIONER BIG TEN
CONFERENCE, INC.:
Andrew John Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
202-263-3220
apincus@mayerbrown.com

RESPONDENTS:
Linda T. Coberly
Winston & Strawn, LLP
35 West Wacker Drive
Chicago, IL 60601
312-558-8768
lcoberly@winston.com
Steve W. Berman
Hagens Berman Sobol Shapiro LLP
1301 Second Avenue, Suite 2000
Seattle, WA 98101
206-623-7292
steve@hbsslaw.com

This service was effected by sending three copies of the Brief of Amici Curiae Former
Student-Athletes via FedEx, a commercial carrier, as well as by transmitting digital copies via
electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 8th day of February 2021.

